      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201




November 30, 2011


TO:            Peter Budetti
               Deputy Administrator and Director
               Center for Program Integrity
               Centers for Medicare & Medicaid Services

               Deborah Taylor
               Director and Chief Financial Officer
               Office of Financial Management
               Centers for Medicare & Medicaid Services


FROM:          /Brian P. Ritchie/
               Assistant Inspector General for the
                 Centers for Medicare & Medicaid Audits


SUBJECT:       Medicare Compliance Review of Norwood Hospital for the Period July 2008
               Through June 2010 (A-01-11-00510) and Medicare Compliance Review of
               Tallahassee Memorial HealthCare, Inc., for Calendar Years 2009 and 2010
               (A-04-11-08003)


Attached, for your information, are advance copies of our final reports for two of our hospital
compliance reviews. We will issue these reports to Norwood Hospital and Tallahassee Memorial
HealthCare, Inc. within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.
The two attached reports are the seventh and eighth reports issued in this initiative.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or your staff may contact the
respective Regional Inspectors General for Audit Services:

Norwood Hospital
Michael J. Armstrong, Regional Inspector General for Audit Services, Region I,
(617) 565-2689, Michael.Armstrong@oig.hhs.gov
Page 2 – Peter Budetti, Deborah Taylor

Tallahassee Memorial Hospital
Lori S. Pilcher, Regional Inspector General for Audit Services, Region IV,
(404) 562-7750, Lori.Pilcher@oig.hhs.gov



Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
November 30, 2011

Report Number: A-01-11-00510

Ms. Karen Murray
Vice President, Chief Compliance Officer
Steward HealthCare System
30 Perwal Street
Westwood, MA 02090

Dear Ms. Murray:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Norwood Hospital for the
Period July 2008 Through June 2010. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kimberly Rapoza, Audit Manager, at (617) 565-2695 or through email at
Kimberly.Rapoza@oig.hhs.gov. Please refer to report number A-01-11-00510 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Karen Murray


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   MEDICARE COMPLIANCE
    REVIEW OF NORWOOD
  HOSPITAL FOR THE PERIOD
JULY 2008 THROUGH JUNE 2010




                       Daniel R. Levinson
                        Inspector General

                        November 2011
                        A-01-11-00510
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Norwood Hospital (the Hospital) is a 264-bed acute care facility located in Norwood,
Massachusetts. Medicare paid the Hospital approximately $78 million for 9,646 inpatient and
43,541 outpatient claims for services provided to beneficiaries from July 2008 through June 2010
based on CMS’s National Claims History data.

Our audit covered $1,204,371 in Medicare payments to the Hospital for 198 claims that we
judgmentally selected as potentially at risk for billing errors. These 198 claims had dates of
service from July 2008 through June 2010 and consisted of 123 inpatient and 75 outpatient
claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 99 of the 198 claims we reviewed.
However, the Hospital did not fully comply with Medicare billing requirements for selected
inpatient and outpatient claims. Specifically, 99 claims had errors, resulting in overpayments
totaling $206,836 from July 2008 through June 2010. Overpayments occurred primarily because
the Hospital did not have adequate controls to prevent incorrect billing of Medicare claims and
did not fully understand the Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $206,836, consisting of $185,682 in overpayments for
       48 incorrectly billed inpatient claims and $21,154 in overpayments for 51 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

NORWOOD HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations. The
Hospital stated that it has begun refunding the overpayments to Medicare, strengthened controls
to ensure full compliance with Medicare requirements, and developed corrective action plans to
address our audit findings. The Hospital’s comments are included in their entirety as the
Appendix.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Norwood Hospital ..........................................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................6
          Inpatient Short Stays ......................................................................................................6
          Inpatient Same-Day Discharges and Readmissions .......................................................6
          Inpatient Claims Billed With High Severity Level Diagnosis-Related Group Codes ...7
          Inpatient Claims Paid in Excess of Charges ..................................................................7

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Outpatient Claims Billed With Modifier -59 .................................................................7
          Outpatient Claims Billed During Inpatient Stays ..........................................................8
          Outpatient Evaluation and Management Services Billed With Surgical Services ........8
          Outpatient Claims Paid in Excess of Charges................................................................8
          Outpatient Dental Services ............................................................................................8

      RECOMMENDATIONS .......................................................................................................9

      NORWOOD HOSPITAL COMMENTS ...............................................................................9

APPENDIX

      NORWOOD HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to
identify and group the services within each APC group. 3 All services and items within an APC
group are comparable clinically and require comparable resources.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                         1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    • inpatient short stays,

    • inpatient same-day discharges and readmissions,

    • inpatient claims billed with high severity level DRG codes,

    • inpatient claims paid in excess of charges,

    • outpatient claims billed with modifier -59,

    • outpatient claims billed during inpatient stays,

    • outpatient evaluation and management services billed with surgical services,

    • outpatient claims paid in excess of charges, and

    • outpatient dental services.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may


                                                   2
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Norwood Hospital

Norwood Hospital (the Hospital) is a 264-bed acute care hospital located in Norwood,
Massachusetts. Medicare paid the Hospital approximately $78 million for 9,646 inpatient and
43,541 outpatient claims for services provided to beneficiaries from July 2008 through June 2010
based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $1,204,371 in Medicare payments to the Hospital for 198 claims that we
judgmentally selected as potentially at risk for billing errors. These 198 claims had dates of
service from July 2008 through June 2010 and consisted of 123 inpatient and 75 outpatient
claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical reviews to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during May and June 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;




                                                 3
   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for July 2008 through June 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 198 claims (123 inpatient and 75 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 99 of the 198 claims we reviewed.
However, the Hospital did not fully comply with Medicare billing requirements for selected
inpatient and outpatient claims. Specifically, 99 claims had errors, resulting in overpayments
totaling $206,836 from July 2008 through June 2010. Overpayments occurred primarily because
the Hospital did not have adequate controls to prevent incorrect billing of Medicare claims and
did not fully understand the Medicare billing requirements.




                                                4
Of 123 sampled inpatient claims, 48 claims had billing errors, resulting in overpayments totaling
$185,682:

   •   For inpatient claims with short stays, the Hospital incorrectly billed Medicare Part A for
       beneficiary stays that should have been billed as outpatient or outpatient with observation
       services (22 errors). Additionally, 1 claim did not have a valid physician order to admit
       the beneficiary for inpatient care (22 errors totaling $80,456).

   •   For inpatient claims with same-day discharges and readmissions, the Hospital billed
       Medicare separately for related discharges and readmissions within the same day
       (11 errors totaling $51,086 in overpayments).

   •   For inpatient claims billed with high severity level DRG codes, the Hospital billed
       Medicare with incorrect DRG codes (11 errors totaling $26,048 in overpayments).

   •   For inpatient claims paid in excess of charges, the Hospital billed Medicare with incorrect
       DRG codes (four errors totaling $28,092 in overpayments).

Of 75 sampled outpatient claims, 51 claims had billing errors, resulting in overpayments totaling
$21,154:

   •   For outpatient claims billed with modifier -59, the Hospital incorrectly billed Medicare
       for HCPCS codes that did not require modifier -59 (12 errors) or for services that were
       insufficiently documented in the medical records (9 errors) (21 errors totaling $1,307 in
       overpayments).

   •   For outpatient claims billed during an inpatient stay, the Hospital incorrectly billed
       Medicare Part B for outpatient services provided during inpatient stays that should have
       been included on the Hospital’s inpatient (Part A) bills to Medicare (8 errors) or for
       services that were billed with incorrect dates of service (3 errors) (11 errors totaling
       $2,541 in overpayments).

   •   For outpatient evaluation and management service claims billed with surgical services,
       the Hospital incorrectly billed Medicare for services that were part of the usual
       preoperative and postoperative care associated with the procedure (11 errors totaling
       $885 in overpayments).

   •   For outpatient claims paid in excess of charges, the Hospital submitted claims to
       Medicare with incorrect HCPCS codes (five errors totaling $2,693 in overpayments).

   •   For outpatient dental services, the Hospital incorrectly billed Medicare for services that
       did not meet required exceptions for coverage of outpatient dental services (three errors
       totaling $13,728 in overpayments).




                                                5
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 48 of the 123 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $185,682.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Section 1814(a)(3) of the Act
states that payment for services furnished to an individual may be made only to providers of
services that are eligible and only if, “with respect to inpatient hospital services ... which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment ….”

For 22 of the 51 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services.
Additionally, one of these claims did not have a valid physician order to admit the beneficiary
for inpatient care. The Hospital attributed the patient admission errors to inadequate internal
controls over case management for monitoring short stays. The Hospital stated that human error
caused the invalid physician order. As a result of these errors, the Hospital received
overpayments totaling $80,456. 4

Inpatient Same-Day Discharges and Readmissions

The Manual, chapter 3, section 40.2.5, states:

        When a patient is discharged/transferred from an acute care Prospective Payment System
        (PPS) hospital and is readmitted to the same acute care PPS hospital on the same day for
        symptoms related to, or for evaluation and management of, the prior stay’s medical
        condition, hospitals shall adjust the original claim generated by the original stay by
        combining the original and subsequent stay on a single claim.

For 11 of the 15 sampled claims, the Hospital billed Medicare separately for related discharges
and readmissions within the same day. The Hospital stated that the errors occurred because of
insufficient internal controls to evaluate whether the stays were related. As a result of these
errors, the Hospital received overpayments totaling $51,086.




4
  The Hospital may bill Medicare Part B for a limited range of services related to some of these 22 incorrect
Medicare Part A short-stay claims. We were unable to determine the effect that billing Medicare Part B would have
on the overpayment amount because these services had not been billed or adjudicated by the MAC prior to the
issuance of our report.

                                                        6
Inpatient Claims Billed With High Severity Level Diagnosis-Related Group Codes

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 11 of the 40 sampled claims, the Hospital billed Medicare for incorrect DRG codes. The
Hospital stated that the errors occurred because staff did not query physicians to obtain
clarification of diagnoses, select diagnosis codes that were supported by the medical records, or
properly interpret guidance related to the selection of a principal diagnosis. As a result of these
errors, the Hospital received overpayments totaling $26,048.

Inpatient Claims Paid in Excess of Charges

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 4 of the 17 sampled claims, the Hospital billed Medicare for incorrect DRG codes. The
Hospital stated that the errors occurred because of coding errors, such as selecting incorrect
procedure or diagnosis codes that were not supported by the medical records and improperly
interpreting guidance for selecting a principal diagnosis. As a result of these errors, the Hospital
received overpayments totaling $28,092.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 51 of the 75 sampled outpatient claims that we
reviewed. These errors resulted in overpayments totaling $21,154.

Outpatient Claims Billed With Modifier -59

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 23, section 20.9.1.1, states:
“The ‘-59’ modifier is used to indicate a distinct procedural service .... This may represent a
different session or patient encounter, different procedure or surgery, different site, or organ
system, separate incision/excision, or separate injury (or area of injury in extensive injuries).”

For 21 of the 36 sampled claims, the Hospital incorrectly billed Medicare for HCPCS codes that
did not require modifier -59 (12 errors) or for services that were insufficiently documented in the
medical records (9 errors). The Hospital stated these errors occurred primarily because of human
error, including staff misinterpreting the billing requirements for modifier -59. As a result of
these errors, the Hospital received overpayments totaling $1,307.




                                                 7
Outpatient Claims Billed During Inpatient Stays

The Manual, chapter 3, section 10.4, states that Part A covers certain items and nonphysician
services furnished to inpatients and consequently the inpatient prospective payment rate covers
these services.

For all of the 11 sampled claims, the Hospital incorrectly billed Medicare Part B for outpatient
services provided during an inpatient stay that should have been included on the Hospital’s
inpatient (Part A) bills to Medicare (8 errors) or for services that were billed with incorrect dates
of service (3 errors). The majority of these errors were for ambulance services. The Hospital
attributed these errors to human error, including a misunderstanding of certain billing
requirements. As a result of these errors, the Hospital received overpayments totaling $2,541.

Outpatient Evaluation and Management Services Billed With Surgical Services

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, requires that claims be completed accurately to be processed correctly and promptly.

For all of the 11 sampled claims, the Hospital incorrectly billed Medicare for services that were
part of the usual preoperative and postoperative care associated with the procedure. The
Hospital stated that these errors occurred because staff incorrectly selected evaluation and
management services as a separately billable service when they should have billed only for the
procedure. As a result of these errors, the Hospital received overpayments totaling $885.

Outpatient Claims Paid in Excess of Charges

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. Additionally, the Manual,
chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that Medicare
contractors may process them correctly and promptly.

For 5 of the 14 sampled claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes. The Hospital stated that these overpayments occurred because of human error,
including not properly interpreting coding guidance. As a result of these errors, the Hospital
received overpayments totaling $2,693.

Outpatient Dental Services

Section 1862(a)(12) of the Act states:

       No payment may be made under Part A or Part B for any expenses incurred for items or
       services where such expenses are for services in connection with the care, treatment, filling,
       removal, or replacement of teeth or structures directly supporting teeth, except that payment
       may be made under Part A in the case of inpatient hospital services in connection with the
       provision of such dental services if the individual, because of his underlying medical


                                                  8
       condition and clinical status or because of the severity of the dental procedure, requires
       hospitalization in connection with the provision of such services.

For all of the three sampled outpatient dental service claims, the Hospital incorrectly billed
Medicare for services that did not meet required exceptions for coverage of outpatient dental
services. The Hospital stated that these overpayments occurred because its systems did not have
edits or other controls to identify dental procedures prior to the provision of services or
submission of the claims. As a result of these errors, the Hospital received overpayments
totaling $13,728.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $206,836, consisting of $185,682 in overpayments for
       48 incorrectly billed inpatient claims and $21,154 in overpayments for 51 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

NORWOOD HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations. The
Hospital stated that it has begun refunding the overpayments to Medicare, strengthened controls
to ensure full compliance with Medicare requirements, and developed corrective action plans to
address our audit findings. The Hospital’s comments are included in their entirety as the
Appendix.




                                                  9
APPENDIX
                                                                                                     Page 1 of 3

                         APPENDIX: NORWOOD HOSPITAL COMMENTS




    October 25, 2011




    Michael J. Armstrong
    Regional Inspector General for Auditing Services
    Office of Audit Services
    Region I
    John F. Kennedy Federal Building
    Room 2425
    Boston, MA 02203

    RE: A-01-11-00510

    Dear Mr. Armstrong:

    Norwood Hospital (The Hospital) is in receipt of the Draft OIG Audit Report entitled
    Medicare Compliance Review of Norwood Hospital for the Period June 2008 to June 2010 1.
    The Hospital generally agrees with the findings and as instructed by the OIG auditors, has
    begun the process of correcting and resubmitting the claims to the Medicare Administrative
    Contractor, NHIC, through the Fiscal Intermediary Standard System and to the appropriate
    secondary payers.

    The Hospital is committed to compliance. Steward Health Care System dedicates resources
    to prevent billing errors, to monitor its adherence to federal, state and local laws and
    regulations and to promptly remedy identified deficiencies. The Hospital is implementing
    even stronger internal controls aimed at minimizing the risk of the identified errors from
    occurring in the future.

    No systemic issues were identified by the auditors and corrective action plans have been
    developed to address the issues raised by the audit report findings, including targeting weaker
    areas with additional education, monitoring, coding and case management quality assurance,
    workflow redesign, updated policies and procedures, and new technology applications.


1
 During the period under review, the Hospital was a part of Caritas Christi. As of November 6, 2010, the Hospital
was acquired by Steward Health Care System.

           Steward Office of Corporate Compliance & Privacy, 500 Boylston Street, Boston, MA 02116
                                                                                           Page 2 of 3




Specific corrective actions for each area follow:

•   Inpatient Short Stays: Case management implemented daily quality assurance reviews of
    one day stays, while new initiatives (staff alignment, process redesign, technology) are
    considered. Additional tools were provided to the Hospitalists in August 2011 with
    education planned. Revenue Cycle management created a standard operating procedure
    job aid for account adjustments related to level of care changes and Condition Code 44.
    This job aid was distributed to relevant staff and posted on a common drive for regular
    reference.

•   Inpatient Same Day Discharges and Readmissions: Patient Access management, in
    conjunction with Revenue Cycle management, has enhanced the current procedure for
    identifying and billing patients who are readmitted the same day of a discharge.

•   Inpatient Claims Billed with High Severity Level Diagnosis Related Group Codes and
    Inpatient Claims Paid in Excess of Charges: Existing Health Information Management
    (HIM) controls included management oversight, coder training, official guideline
    resources, software resources, quality assurance, and staff training. Subsequent to the
    period under review, HIM communicated the existing querying policies and procedures
    multiple times to staff to reinforce their understanding of the existing procedures. As part
    of the HIM education process, coders participated in a review of the audit findings with
    the Coding Manager at the time of the OIG field audit. Additional education has been
    provided to the staff on audited inpatient coding areas and the query policy.

•   Outpatient Claims Billed with Modifier -59: Health Information Management arranged
    for coding staff to participate in a Modifier 59 training session. Specific feedback has
    been provided on the audit findings and Modifier 59 requirements to both coding staff
    and other involved departments.

•   Outpatient Claims Billed Prior to and During an Inpatient Stay: Policies and procedures
    have been reviewed and revised by both Norwood Ambulance Services and Revenue
    Cycle management. Ambulance and Revenue Cycle staff has been educated on the
    updated policies and procedures.

•   Outpatient Evaluation & Management (E&M) Services Billed with Surgical Services:
    Identified errors related to pain management services. Certain charge codes have been
    inactivated and policies and procedures have been developed to prevent charge entry staff
    from incorrectly selecting evaluation and management services as separately billable
    service when only the procedure should be billed. Management for the pain management
    services has developed an updated encounter form and facility guidelines. The new
    procedures and tools are in the process of being implemented.

•   Outpatient Claims Paid Greater Than Charges: Existing HIM controls included
    management oversight, coder training, official guideline resources, software resources,

      Steward Office of Corporate Compliance & Privacy, 500 Boylston Street, Boston, MA 02116
                                                                                             Page 3 of 3

      quality assurance, and staff training. Education has been provided to the HIM coding
      staff on proper coding of outpatient claims identified as errors in Audit Report.

•     Dental Services: Patient Access management has provided education on Medicare’s
      dental services exclusion of routine dental care to outpatient scheduling staff.

The Hospital, in conjunction with Steward Health Care System’s Office of Corporate
Compliance & Privacy, will continue to assess the audited areas and update internal controls
as needed. Please feel free to contact me if you require any additional information.

Sincerely,

Karen Murray
Vice President, Chief Compliance Officer

cc:          John Holiver, President, Norwood Hospital
             James Renna, Steward Health Care, Chief Financial Officer
             Rhonda Miller, Steward Health Care, Vice President, Central Billing Office




        Steward Office of Corporate Compliance & Privacy, 500 Boylston Street, Boston, MA 02116
